EXHIBIT A

Mullins v. Corcoran, 95 Mass.App.Ct. 1107 (2019)
124 N.E.3d 706

95 Mass.App.Ct. 1107
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
NOTICE: Summary decisions issued by the Appeals
Court pursuant to its rule 1:28, as amended by
73 Mass. App. Ct. 1001 (2009), are primarily
directed to the parties and, therefore, may not
fully address the facts of the case or the panel's
decisional rationale. Moreover, such decisions are
not circulated to the entire court and, therefore,
represent only the views of the panel that decided
the case. A summary decision pursuant to rule 1:28
issued after February 25, 2008, may be cited for
its persuasive value but, because of the limitations
noted above, not as binding precedent. See Chace
v. Curran, 71 Mass. App. Ct. 258, 260 n.4 (2008).
Appeals Court of Massachusetts.
Joseph R. MULLINS
v.
Joseph E. CORCORAN & another. 1
1

Gary A. Jennison.

18-P-1163
|
Entered: April 10, 2019.

MEMORANDUM AND ORDER
PURSUANT TO RULE 1:28
By the Court (Vuono, Blake & Ditkoff, JJ. 2 ),
2

The panelists are listed in order of seniority.

*1 In this case involving claims and counterclaims of
breach of contract and breach of fiduciary duties, a
judge of the Superior Court issued final judgments in
favor of the defendants, Joseph E. Corcoran and Gary A.
Jennison, following a jury-waived trial. The plaintiff, Joseph
R. Mullins, appeals from the judgments as subsequently
corrected and amended. The defendants also appeal, arguing
that the Superior Court judge improperly calculated the
damages. We affirm.

as Corcoran, Mullins, Jennison, Inc. (CMJ). The parties'
ownership interests in CMJ are not equal. Corcoran has a
sixty percent interest, and Mullins and Jennison both have
twenty percent interests. Pursuant to CMJ's original bylaws,
however, CMJ is managed by a three-member board of
directors, consisting of the parties or their designees. The
board of directors requires a majority vote to act. Thus,
Corcoran does not control the daily business of CMJ despite
his majority interest.
CMJ is in the business of developing residential real estate
projects, and most of those projects have been multifamily
apartment buildings. To finance a project, CMJ historically
used its working capital to cover the costs associated with
conducting a feasibility study and with obtaining regulatory
approvals. CMJ would then take out a construction loan to
finance the actual construction and, once the project was
built and stabilized, CMJ would obtain long-term financing
secured by the property and its revenues. This long-term
financing typically came from government-subsidized loan
programs.
In 1987, the parties entered into a new agreement after
Mullins decided that he wanted to start his own business
while still retaining an interest in CMJ. The 1987 agreement
provided that CMJ would not guarantee the obligations of
any entity and further provided that CMJ would not enter into
any new projects without the unanimous consent of all of the
parties. A key issue during trial was the timing of this consent
provision and whether consent could be revoked once given.
The judge concluded that the 1987 agreement was ambiguous
on this point, and he thus looked to extrinsic evidence to
determine the parties' intent. After reviewing that evidence,
including the parties' past practices and the costs associated
with obtaining regulatory approvals, the judge found that the
1987 agreement required the parties to determine whether to
consent to a new project after the completion of the feasibility
study but before CMJ sought regulatory approvals.
The parties worked together amicably until 2001, when
Mullins brought his first lawsuit against Corcoran and
Jennison. See Mullins v. Corcoran, 65 Mass. App. Ct. 1122
(2006). After that, Corcoran refused to meet or speak directly
with Mullins about business matters. Corcoran and Jennison
instead arranged for CMJ staff to have quarterly meetings
with Mullins to keep him apprised of CMJ's remaining
projects.

1. Background. The parties have been in business together
since the 1970s when they formed a company now known

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Mullins v. Corcoran, 95 Mass.App.Ct. 1107 (2019)
124 N.E.3d 706

*2 One of CMJ's remaining projects involved a parcel of
land with four apartment buildings on one side and a retail
building on the other. This case concerns CMJ's plans to
redevelop the retail side, referred to as Cobble Hill Center.
In 2009, Corcoran assigned his son the task of conducting
a feasibility study. Mullins was aware of this assignment.
Several years later, in January 2012, CMJ staff informed
Mullins of plans to develop an apartment building at Cobble
Hill Center and also provided him with a detailed report on
the project. Mullins received an updated report in June 2012.
On July 17, 2012, Mullins had a regularly scheduled quarterly
meeting with CMJ staff, during which Corcoran's son made
a presentation on the project. After the presentation, Mullins
consented to the project and was fully supportive of it. CMJ
then proceeded to obtain regulatory approvals, which cost in
excess of $ 1 million to obtain.
The project progressed until December 2013, when Mullins
received a status report from Corcoran's son. The status report
included a proposal to give Corcoran's son a ten percent
interest in Cobble Hill Center by reducing Mullins's and
Jennison's interests to eighteen percent each and Corcoran's
interest to fifty-four percent. In response to the status report,
Mullins sent a letter to Corcoran's son requesting additional
information on, inter alia, the financing strategy. Mullins
also asserted that he had not yet consented to the project.
Mullins subsequently received additional information on the
financing strategy, which involved obtaining a construction
loan, replacing the construction loan with a permanent loan
upon completion of construction, and ultimately refinancing
the permanent loan with a government-subsidized loan. 3 In
response, Mullins sent a letter to CMJ again asserting that
he had not yet consented to the project. The judge found
that Mullins's stated reasons for not wanting to proceed with
the project, including the proposal to reduce his interest to
eighteen percent and the riskiness of the proposed financing
strategy, were not made in good faith.
3

Although not discussed by the Superior Court judge, the
financing strategy also included a proposal that CMJ
guarantee the initial construction loan.

After subsequent conversations during which the parties
could not reach an agreement, Mullins filed the underlying
lawsuit against Corcoran and Jennison to prevent the project
from proceeding, and he was successful in accomplishing
that goal. In his complaint, Mullins alleged that Corcoran
and Jennison breached their contractual and fiduciary duties
by proceeding with the development of Cobble Hill Center
without his consent. Corcoran and Jennison counterclaimed,

alleging that Mullins breached his contractual and fiduciary
duties by interfering with the development of Cobble Hill
Center after consenting to the project.
2. Standard of review. In reviewing a judgment entered after
a jury-waived trial, we set aside the trial judge's findings of
fact only if clearly erroneous. Goddard v. Goucher, 89 Mass.
App. Ct. 41, 44 (2016). The trial judge's legal conclusions,
however, are reviewed de novo. Id.
3. The claims and counterclaims. We first address the
successful counterclaims brought by Corcoran and Jennison
against Mullins, as they are the focus of the parties' appeals. 4
Corcoran and Jennison alleged that Mullins breached his
contractual and fiduciary duties by revoking his consent
to develop Cobble Hill Center. On appeal, Mullins argues
that (1) he had legitimate business reasons for revoking
his consent, and (2) he reasonably believed that, under the
terms of an ambiguous contract, he could revoke his consent
because of changed circumstances.
4

As a preliminary matter, Mullins argues that the
judgment against him is based, impermissibly, on his
constitutional right to petition the courts. Corcoran and
Jennison correctly note that Mullins did not raise this
issue below. Mullins contends that the issue was raised
below, but he points only to a portion of the judge's
directed verdict findings that discuss whether Corcoran's
and Jennison's counterclaims based on Mullins's refusal
to agree to an ownership share for Corcoran's son were
based on protected petitioning activity. Mullins does not
cite anywhere in the record where he argued that his
own lawsuit constituted protected petitioning activity.
The argument, therefore, is waived. See Carey v. New
England Organ Bank, 446 Mass. 270, 285 (2006) (issue
not raised below deemed waived on appeal).

*3 We begin our analysis by reviewing the fiduciary duty
standard that applies to shareholders in a close corporation
such as CMJ. Because of the “trust and confidence which
are essential to this scale and manner of enterprise ...
[shareholders] in [a] close corporation owe one another
substantially the same fiduciary duty in the operation of
the enterprise that partners owe to one another” (footnote
omitted). Donahue v. Rodd Electrotype Co. of New England,
Inc., 367 Mass. 578, 592-593 (1975). This duty is one of
“utmost good faith and loyalty.” Allison v. Eriksson, 479
Mass. 626, 636 (2018), quoting Donahue, supra at 593.
In analyzing whether the duty of utmost good faith has
been breached, we look to whether there was a legitimate

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Mullins v. Corcoran, 95 Mass.App.Ct. 1107 (2019)
124 N.E.3d 706

business purpose for the action taken and whether there was
an alternative, less harmful, way to achieve the intended
objective. 5 Koshy v. Sachdev, 477 Mass. 759, 772 (2017).
5

The 1987 agreement required the parties to conduct
themselves in “scrupulous good faith.” The parties
disagree whether “scrupulous good faith” is a higher
standard than “utmost good faith.” As we affirm even
applying the “utmost good faith” standard as urged by
Mullins, we need not resolve this quandary.

With this standard in mind, we address Mullins's argument
that he had three different legitimate business reasons for
revoking his consent and filing his lawsuit against Corcoran
and Jennison: (1) the proposal to reduce his interest in
the project; (2) the proposal to have CMJ guarantee the
construction loan; and (3) the riskiness of the proposed
financing strategy. As to Mullins's first and second reasons,
we consider whether he had a legitimate business purpose
for the action taken. See Koshy, 477 Mass. at 772. We are
guided by the fact that Mullins's intent in revoking his consent
and filing the underlying action was to prevent the project
from proceeding. With that in mind, we acknowledge that
Mullins may have had a basis for demanding that Corcoran
and Jennison recognize his right to veto a CMJ loan guaranty
and a reduction in his interest and, if they refused, to bring
a declaratory judgment action or take some other action to
clarify the parties' rights under their agreements. That does
not mean, however, that Mullins had a legitimate business
purpose for halting, unilaterally, a project on which the parties
had just spent over $ 1 million to obtain regulatory approvals.
Mullins's third reason is also unavailing. Mullins argues
that the proposed financing strategy was a different, riskier,
strategy than the one that CMJ had used historically. The
June 2012 report that Mullins received before initially
consenting to the project, however, indicated that CMJ was
exploring a different financing strategy. Mullins did not
condition his consent on any particular financing strategy,
which is otherwise a business decision that would have been
determined by a majority vote of the board of directors. 6
6

We further note that we are bound by the judge's
findings that Mullins's stated reasons for revoking his
consent were not asserted in good faith, and we see
nothing clearly erroneous about these findings, which
are ultimately based on credibility determinations. See
Passero v. Fitzsimmons, 92 Mass. App. Ct. 76, 83 (2017)

(“assessing the credibility of the witnesses was squarely
within the purview of the judge”).

Mullins's second argument, that his reasonable interpretation
of an ambiguous contract cannot give rise to a finding of bad
faith, is premised on the judge's conclusion that there was
some ambiguity in the 1987 agreement as to how long the
parties had to decide whether to consent to a new project. 7
Mullins contends that a mere breach of a contract, based on
a reasonable interpretation of ambiguous contractual terms,
cannot be the basis for a finding of bad faith. That is not what
occurred here, however. In looking at the extrinsic evidence,
the judge found that “it would not have made rational business
sense ... to give each of the CMJ principals absolute veto
power over a new real estate development project at any
time before the terms of long-term financing were finalized.”
Based on the costs CMJ typically incurred before finalizing
long-term financing, we agree that Mullins's interpretation
was irrational and thus unreasonable. Moreover, Mullins's
actions amount to more than a mere breach of contract. Not
only did he revoke his consent, he engaged in bad faith
conduct, using false assertions about the information he had
received and the riskiness of the project. He then acted in
bad faith to prevent the project from proceeding. In these
circumstances, we see no merit to Mullins's argument. See,
e.g., Federal Deposit Ins. Corp. v. Holbrook & Johnston, 36
Mass. App. Ct. 424, 428-430 (1994) (involving ambiguous
contract, defendant was liable for failing to perform his
obligations where such failure resulted from his bad faith,
gross negligence, actual fraud, or willful misconduct).
7

Mullins also argues that the judge erroneously found that
Mullins could not revoke his consent under the 1987
agreement once he learned of material changes to the
project. This argument has no merit, as discussed infra.

*4 Having addressed Mullins's arguments regarding
Corcoran's and Jennison's counterclaims, we turn to Mullins's
arguments regarding his own claims. Mullins argues that
the judgment was based on an erroneous finding that, even
though there were material changes to the proposed project,
he could not revoke his consent after the July 2012 meeting. 8
We discern no clear error in the judge's finding that the
1987 agreement required the parties to determine whether
to consent to a new project before CMJ sought regulatory
approvals. See Browning-Ferris Indus., Inc. v. Casella Waste
Mgt. of Mass., Inc., 79 Mass. App. Ct. 300, 307-308 (2011)
(meaning of ambiguous contract is question of fact subject to
“clearly erroneous” standard of review). The judge's finding
is supported by the fact that it typically cost CMJ a substantial

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Mullins v. Corcoran, 95 Mass.App.Ct. 1107 (2019)
124 N.E.3d 706

amount of money to obtain regulatory approvals. In addition,
as noted by the judge, material facts regarding a project may
change up until the completion of construction, or possibly
even later, and it would not have made sense to allow
revocation of consent that far into a project. Instead, as the
judge found, it made sense for those business decisions to be
left to a majority vote of the board of directors. 9
8

9

Our conclusion regarding Mullins's ability to revoke
his consent rests on his asserted objections to (1) the
proposal to reduce his interest in the project; (2) the
proposal to have CMJ guarantee the construction loan;
and (3) the riskiness of the proposed financing strategy.
We need not decide whether Mullins could have revoked
his consent based on other hypothetical changes to the
proposed project.
Mullins argues that the judge erred in looking to the
parties' past practices in interpreting the timing of the
consent provision. Given the judge's other well-grounded
reasons for interpreting the 1987 agreement as he did, we
need not address this argument.

4. Damages. Mullins, as well as Corcoran and Jennison, argue
that the judge erred in calculating the damages. We disagree.
To put Corcoran and Jennison back in the position they would
have been had Mullins not breached, the judge calculated lost
profits by determining what Cobble Hill Center would have
been worth once stabilized and by then subtracting from that
amount (1) the likely cost to complete the project and (2) the
value of the land still owned by CMJ. See Pasquale v. Casale,
72 Mass. App. Ct. 729, 736 (2008), quoting Situation Mgmt.
Sys., Inc. v. Malouf, Inc., 430 Mass. 875, 880 (2000) (“An
award of ‘expectancy’ damages may include lost profits”).
See generally John Hetherington & Sons, Ltd. v. William Firth
Co., 210 Mass. 8, 21 (1911) (setting forth long-established
rule for breach of contract recovery). In determining the
likely cost to complete the project, the judge credited the
testimony of Corcoran and Jennison's expert witness that
costs were increasing between 2013 and 2016. In determining
the value of the land, the judge credited an independent
financial analysis indicating that the parties could have sold
the land in 2015, with regulatory approvals in place, for $ 15
million.
Corcoran and Jennison argue that the judge erred in
considering the effect of inflation when determining the cost
End of Document

to complete the project. In making this argument, Corcoran
and Jennison rely on evidence indicating that they had plans
to enter into a guaranteed maximum price contract that would
have fixed the costs. No such contract had been finalized,
however, and we will not speculate on what contingencies any
such contract may have included. 10 In these circumstances,
we see no reason to set aside as clearly erroneous the judge's
finding that it would have cost $ 45 million to complete the
project.
10

In fact, a CMJ monthly project report dated June 25,
2014, less than one month before Mullins filed his
lawsuit, indicated, “We are expecting final pricing ...
during the first half of July. The construction contract
will still need to be negotiated before issuing notice to
proceed ....”

Mullins argues that the judge's lost profits analysis will result
in a double recovery for Corcoran and Jennison, who still
have an interest in the land and may one day develop it for
a profit. As described above, however, the judge included in
his calculation a reduction for the value of the land in 2015,
with regulatory approvals in place. This reduction takes into
consideration the fact that the parties still control the land
and that they may eventually sell it for a profit. Mullins's
arguments to the contrary challenge the judge's findings
regarding the value of the land and the possibility of future
profits, none of which are clearly erroneous. 11
11

For example, we are not persuaded by Mullins's
arguments that the parties could have entered into a
presale transaction for an amount in excess of $ 60
million. Such a transaction would have required CMJ to
contract, before starting construction, to sell the property
to a third-party investor at some future date. Where
Mullins, himself, testified that he was not aware of any
presale transactions in the Boston area, we see no error
in the judge's finding that the possibility of any such
transaction was completely speculative.

*5 Corrected and amended judgments affirmed.
All Citations
95 Mass.App.Ct. 1107, 124 N.E.3d 706 (Table), 2019 WL
1553041

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

